CERTIFICATE OF COMPLIANCE
Case No. - - Caption: Lilley v. The State of New Hampshire
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,167 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 8, 2019.

Natalie Pierre
Record Press, Inc.

Sworn to before me on
July 8, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

